@--
                             OFFICE OF INSPECTOR                 GENERAL

The mission of the Oftlce of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is to
protect the integrity of the Department of Health and Human Services’ (HHS) programs as well as the health
and welfare of beneficiaries served by those programs. This statutory mission is carried out through a
nationwide network of audits, investigations, and inspections conducted by three OIG operating components:
the Oftlce of Audit Services, the OffIce of Investigations, and the Oftlce of Evaluation and Inspections. The
OIG also informs the Secretary of HHS of program and management problems and recommends courses to
correct them.

                                 OFFICE OF AUDIT SERVICES

The OIG’S OffIce of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations in
order to reduce waste, abuse, and mismanagement and to promote economy and efficiency throughout the
Department.

                                OFFICE OF INVESTIGATIONS

The OIG’S Of%ce of Investigations (01) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by providers.
The investigative efforts of 01 lead.to criminal convictions, administrative sanctions, or civil money
penalties. The 01 also oversees State Medicaid fraud control units which investigate and prosecute fraud and
patient abuse in the Medicaid program.

                     OFFICE OF EVALUATION                   AND INSPECTIONS

The OIG’S OffIce of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and the
public. The findings and recommendations contained in these inspection reports generate rapid, accurate,
and up-to-date information on the eftlciency, vulnerability, and effectiveness of departmental programs. This
report was prepared in the Dallas regional Officeunder the direction of Chester Slaughter, Acting Regional
Inspector General. Project staff


DALLAS                                                                                    HEAM2UARTEW
Kevin Golladay                                                                             Brian Ritchie
Pamela A. Smith




            For additional copies of this report, please contact Kevin Golladay at (214) 767-3310.
Department   of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




  MEDICARE PAYMENTS FOR NON-
PROFESSIONAL SERVICES IN SKILLED
        NURSING FACILITIES
             EXECUTIVE                             SUMMARY

PURPOSE

To assess the Part B payment pattern and Medicare policy for the provision of non-
professional services covered by the skilled nursing facility (SNF) benefit.

BACKGROUND

The Medicare program provides coverage under Part A for stays, of up to 100 days per
benefit period, in SNFS. Section 1861h of the Social Security Act specifies the covered
SNF services provided to an individual during a Part A skilled nursing stay. Among these
are services which can be categorized as “non-professional institutional services”(e.g.,
room, board, supplies and equipment).

Many services and supplies billed directly to Part B are the same as non-professional
institutional services covered under Part A. Thus, if provided by the SNF, these services
and supplies would typically be included in the rate paid by Medicare for beneficiaries in
a Part A covered SNF stay. However, if provided by a supplier directly to the
beneficiary, billings could be made to Part B rather than Part A. In fact, a recent OIG
report substantiates that billing Part B for these items does occur in Medicare covered
SNF stays.

This report examines the extent of Part B billings for nonprofessional institutional services
such as enteral nutrition services, incontinence care services, and surgical dressings
provided to beneficiaries during Medicare covered SNF stays. We did not review
situations where an individual in a SNF was not covered by Part A but receiving a SNF
level of care.

To determine how many payments were made for Medicare beneficiaries during SNF
stays, we frost developed a one percent sample of Medicare beneficiaries. Within this
sample, we selected beneficiaries with a Medicare covered SNF stay in 1991 and 1992,
along with the dates of the stay. We then obtained Part B claims submitted and allowed
on behalf of these beneficiaries with service dates coinciding with the dates the beneficiary
was in a SNF stay being paid for by Medicare.

mlNGs

Current Medicare Policies May Inappropriately Allow Billing Of Non-Professional
Services To Part B During Medicare Covered SNF Stays.

Overall, non-professional institutional services provided during covered Part A SNF stays
accounted for approximately $90 million in 1991 and $102 million in 1992 in allowed Part
B payments. Section 1833(d) of the Medicare law states that no payment can be made by
Part B for a service provided under Part A. However, there is no requirement that SNF


                                               1
services must be paid by Part A. Thus, paying for non-professional services through Part
B rather than part A is often legal. Nevertheless, allowing Part B payment for services
covered in the SNF benefit seems incongruent with the intent of the benefit. This action
removes responsibility from the SNF to provide for these services. Part B allowance also
leads to greater beneficiary financial responsibility. The beneficiaries may not even be
aware that the facility provides these services in such a way that their personal costs for
care increase.

Over $70 Million Were Allowed By Part B For Three Specific Services Provided To
SNF Residents In 1992.

�      $57 Million for Enteral Nutrition Services.

�      $6 Million for Surgical Dressings.

�      $10 Million for Incontinence Care Items.

Enteral Nutrition

Since enteral nutrients provide all needed nutrition for some patients, it is obvious that

they are food. Further, they are considered to be a food by the Food and Drug

Administration. Given this acceptance, to not consider nutrients a basic benefit of a SNF

and allowing billing outside of the per diem- seems illogical., However, SNFS may either

include these services in their routine costs and .bilI-Part A of Medicare, or allow suppliers ~~~

to provide the services and bill Part B. Further, SNFS can perform-as. the suppliers and

thus, bill both the SNF per diem rate under Part A and the food (enteral nutrients) costs

under Part B.


Incontinence Care

Prior to 1972, incontinence items were included in routine costs of a SNF and thus, were
payable within the Part A payment. Although they have since been deleted from the
routine cost listing, they are included under inpatient ancillary services, also a component
of the SNF payment. Yet, while 92 percent of the nursing homes in 1992 provided
services to patients with incontinence needs, Part B paid for some of these services.

Sur~”cal Dressings

Surgical dressings have also been removed from the list of routine services provided in a
SNF and are now included as an ancillary service payable by Part A. While dressings are
considered items generally provided by SNFS, they are also listed in regulation as items
covered by Part A only if the individual SNF generally provides the service. This further
complicates the ability to determine the correct payment source during a SNF stay and
may partially explain why Part B pays for some surgical dressings for SNF residents.




                                              ii
Paying For These Services And         Under Part A Could Save Medicare Money
                                   Supplies

And Reduce Improper Incentives For Providers.

Part B payment clouds responsibility for patient care, removes incentives for reasonable
utilization -and cost control, and makes it more difficult to compare costs and to set
reasonable limits on per diem rates. If SNFS acted as prudent purchasers, by buying in
bulk and taking advantage of negotiated rates, savings might result. This activity could
lead to acquisition costs lower than the Part B reimbursement rates. Including non-
professional services in the Part A payment would also reduce facility incentives to avoid
the SNF cost limit by allowing suppliers to provide the services and bill Part B. Finally,
including non-professional services in the SNF payment could prevent marketing abuses.

Paying For These Services Under Part A Would AlSO Save          Beneficiaries   Money.

By including enteral and incontinence services and surgical dressings in the Part A SNF
payment, the beneficiary would not bear the burden of the deductible and 20 percent
copayment involved in Part B. This would have resulted in beneficiary savings of
approximately $17.6 million in 1991 and $18.5 million in 1992. While a signitlcant
portion of these savings might shift as costs to Medicare, Part A, these costs may be
offset by the potential savings described in the previous finding.

Coding problem     Exist On Claims Submitted For These Services.

While all of the claims included in this report represent. care. provided during a covered ~
SNF stay, many claims indicated a place of service other than a SNF. While coding
practices improved between 1991 and 1992 for incontinence services and surgical
dressings, problems increased for enteral nutrition service claims.

RECOMMENDATIONS

The current fragmented manner in which Medicare payment is made for SNF residents is
a result of statutory provisions originally intended to ensure access to care. This report
demonstrates that the ability of a SNF to make use of both Part A and Part B to
underwrite care to its residents can result in increased progmm expenditures and waste
and may dissipate the SNFS incentives to oversee the total package of care the resident
receives.

In light of this, we recommend that:

  �	   HCFA develop a legislative recommendation to prohibit entities other than the SNF
       from seeking coverage on behalf of persons in Part A covered SNF stays for
       enteral nutrition, incontinence care, and surgical dressings and limit Medicare
       coverage of these services to Part A.

 �	    HCFA clarify 42 CFR 483.35 (Dietary Services) to speciilcally include parenteral
       and enteral nutrition.


                                              ...
                                              111
COMMENTS

Comments were received from the HCFA, ASPE, and PHS on the draft report. The full
text of the comments is included in Appendix C.

The HCFA and ASPE made suggestions about refocusing the recommendations to more
clearly address the problems discussed in the report, which we adopted. Both HCFA and
ASPE stated several concerns about language in the draft report raising questions about
quality of care and about tying the problems discussed to residents’ rights. We agree with
HCFA and ASPE and have eliminated the language on these points.

Both HCFA and ASPE also raised questions about how savings might accrue to the
Medicare program by implementation of the recommendations. We attempted to clarify
our discussion of this point within the text of the report. It is true that merely shifting
costs to Part A, without putting in place proper payment policies, accomplishes little.
Medicare payment poiicies should both create incentives for prudent purchasing arm
reflect the economies achieved through prudent purchasing. As indicated in the report,
the OIG plans more work on this subject, focusing fwst on payment for enteral nutrition.

Lastly, we adopted a number of suggested technical improvements made by the
commenters.




                                              iv
                            TABLE                OF         CONTENTS

                                                                                                          PAGE

EXECUTIVE           SUMMARY            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..i


INTRODUCTION                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1


FINDINGS         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...3


  � Inappropriateness         Of Part Billings      .   . . . . . . . . .   . . . . . . . . . . . . . . . . . ..3



      EnterdNutntion            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


      Incontinence Care . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...6


      Sur@”calDressings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...7


  •partJ3~lowances~atCou1d                    Have&enB orneBypartA                    . . . . . . . . . . . . . . 8


  �   program     outlays    hdImproper          Bovider    Incentives      . . . . . . . . . . . . . . . . . . .    8


  •sav~gs,ForBeneficifies               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..9



  �   Coding    problems      . . . . . . . . . . . . . . . . . . , . . . . . . . . . . . . . . . . . . . . . .9





RECOWNDATIONS
         .
                         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


ENDNOTES           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


APPENDIX

A: Confidence Intervals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..A-1


B: Medicare Expenditures By Category of Service . . . . . . . . . . . . . . . . . . . . .B-l


C: Text OfAgencyComments.                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..C-l
                           INTRODUCTION

PURPOSE

To assess the Part B payment pattern and Medicare policy for the provision of non-
professional services covered by the skilled nursing facility (SNF) benefit.


BACKGROUND

The Medicare program provides coverage under Part A for stays, ofupto 100 days per
benefit period, in SNFS. A SNF stay is dependent on a specific set of conditions
necessary for coverage (e. g., need for skilled services on a daily basis following a three-
day qualifying hospital stay).

Section 1861h of the Social Security Act spec~les the covered SNF services provided to
an individual during a Part A skilled nursing stay. Among these are services which can
be categorized as “non-professional institutional services.’; These services are listed in
Table 1.

                                          TABLE     1

                        Non-professional Institutional Services.
                          Covered During Part A SNF Stays

   �       Bed and boati in connection with the jimnishing of nursing care.
   �       Such drugs biolo “cals, supplies,    pliances and equi ment jhrnished
          for-use in the W F, as are ordinari‘?’
                                               y fimished by suc%facikty for the
           care and trea#ment of inp~”ents.
   �	     Such other services necessary to the health of the p~”ent as are genemlly
          provtied by SNFS.



Many services and supplies billed directly to Part B are the same as non-professional
institutional services covered under Part A. Thus, if provided by the SNF, these services
and supplies would typically be included in the rate paid by Medicare for beneficiaries in
a Part A covered SNF stay. However, if provided by a supplier directly to the
beneficiary, billings could be made to Part B rather than Part A. In fact, a recent OIG
report substantiates that billing Part B for these items does occur in Medicare covered
WWFstays. ‘




                                               1

SCOPE

This report examines the extent of Part B billings for non-professional institutional
services such as enteral nutrition services, incontinence care services, and surgical
dressings provided to beneficiaries during Medicare covered SNF stays. We did not
review situations where an individual in a SNF was not covered by Part A but receiving a
SNF level of care.

Previous OIG reports have presented an overview of Medicare SNF services and payment
for durable medical equipment (DME) billed during skilled stays.

METHODOLOGY

To determine how many payments were made for Medicare beneficiaries during SNF
stays, we first developed a one percent sample of Medicare beneficiaries. Within this
sample, we selected beneficiaries with a Medicare covered SNF stay in 1991 and 1992,
along with the dates of the stay. We then obtained Part B claims submitted and allowed
on behalf of these beneficiaries with service dates coinciding with the dates the beneficiary
was in a SNF stay being paid for by Medicare.

In addition to claims review, we reviewed the law, as well as Medicare Carrier and
Durable Medical Equipment Regional Carrier (DMERC) manuals, to identify established
policy in the areas examined.




                                              2

                                               FINDINGS


Current Medicare Policies May Inappropriately Allow Billing Of Non-Professional
Services To Part B During Medicare Covered SNF Stays.

Non-professional institutional services provided to patients and billed to Part B during
covered Part A SNF stays accounted for $89.8 million in 1991 and $101.6 million in
1992. Included in this category of services are incontinence care services, surgical
dressings, and dietary services, such as enteral nutrient services. Such services are
billable to Part A if provided by the SNF during a Medicare covered SNF stay.
However, as noted above, these items are also allowed as Part B services during Part A
stays .

         Non-Professional                                Institutional                         Services
           Dollars   Spent                         By     Category                    of       Service


           1991




           1992




                                                          Millions
                   -       Enteral         -       Incontinent       -    Dressing.        -     Bra...   et.
                   -       casts     etc   M       Parenteral        -    Trach            M     Other



              ..
                                                        FIGURE 1

       SOURCE:         OIG Projections         from a one-percent        sample of Medicare        beneficiaries.


Section 1833(d) of the Medicare law states that no payment can be made by Part B for a
service provided under Part A. However, it does not- indicate that covered institutional
SNF services must be paid by Part A. Thus, while it is obvious that the law intends for
these services to be provided during a Part A covered SNF stay, the law does not require
that the services be provided by the SNF or paid by Part A. The ability of a SNF to
provide services under arrangements does not remove responsibility from the SNF for the
overall care provided to a beneficiary. However, it does permit the facility, to the extent
allowed by law, to determine what costs will be subject to the SNF routine cost limit.

Allowing Part B payment for covered Part A services not only seems incongruent with the
intent of the SNF benefit, it also leads to greater beneficiary financial responsibility. This
occurs since the beneficiary is responsible for an annual deductible and 20 percent co­
payment for Part B services. However, the beneficiary may not know that the facility
does not provide these services, thus incurring unexpected personal costs for care. For


                                                                 3
example, in 1991 and 1992, co-payment expenses represented $22 million and $25
million, respectively.

The impact of Part B payment for Part A covered services will be explored through three
examples: enteral nutrition services, incontinence care services, and surgical dressings.
These items accounted for over 70 percent of the Part B payments allowed in 1991 and
1992 for non-professional services provided during Medicare covered SNF stays.

ENTERAL     NUTRITION       POLICY

Definition of Enteral Nutrition: Enteral nutrition is a form of liquid nutrition that is
provided to a patient who, due to a chronic illness or trauma, is unable to eat in the
normal manner. This diet is generally required to sustain life and provides all of the
patient’s nutritional and caloric needs. Patients surviving on enteral nutrition require a
tube to be placed either directly into the stomach or small intestine through the skin, or
indiredly via the nasal passage. The receipt of enteral nutrition services often requires
skilled care, although patients can receive this service at home.

Enteral nutrition is considered reasonable and necessary for a patient with a functioning
gastrointestinal tract in certain circumstances. Individuals who are unable to ingest food,
due to pathology or non-functioning of structures that permit food to reach the digestive ~
tract, require enteral nutrition services. Examples of conditions that would qualify for
coverage are head and neck cancer with reconstructive surgery, central nervous system
disease affecting the ability to ingest food orally, and severe difficulty swallowing after a ~
stroke.

Medicare Covenzge Requirements for Enteral Z%erzz.py:As specified previously, enteral
nutrition services may be covered by Part A or B during a covered SNF stay. Enteral
nutrients are classifki as a food by the Food and Drug Administration (FDA), and thus,
are considered food for pu~oses of Part A coverage.2 However, for Part B coverage,
enteral nutrition services are considered a prosthetic device and must meet certain
requirements. First, the beneficiary must have a permanently inoperative internal body
organ, or an impairment lasting at least 90 days. A second requirement is patient
dependence on enteral nutrients. To show a dependence on nutrients, the patient must
require 20 to 35 calories of enteral nutrients, per kilogram of body weight per day.
Although patients may only require supplements to their daily protein and caloric intake,
this is not covered under Medicare Part B services. However, supplements are covered
by Part A. Finally, if these Part B requirements for therapy are met, related supplies,
equipment, and nutrients are also covered.

Part B Payment For Enteral Nutrition Provided To Beneficiaries         In SNFS Seems
Inconsistent With The Purpose Of The SNF Benefit.

A recent OIG review determined that Part B payments were made for enteral nutrition and
related equipment and supplies in seven percent of Medicare covered SNF stays in 1991,
and in six percent in 1992. The Health Care Financing Administration (HCFA) has a


                                              4
longstanding practice of allowing Part B payment for enteral nutrition services provided to

residents of SNFS. This practice continues under the DMERCS, which have issued

instructions that enteral nutrition services may be covered under either Part A or under

Part B for such beneficiaries, depending on who supplies the service. However, if the

individual “-residesin a SNF under a Medicare covered stay, this policy may effectively

relieve the facility of fundamental responsibilities inherent in the SNF benefit.


The FDA has stated that enteral nutrients may be considered as food or drugs, dependent

on the stated purpose of the claims. Since most patients receiving enteml nutrition

services in SNFS depend on them to sustain life, it would appear that these services should

represent their food consumption and should be included in the SNF’s dietary cost center.


Provision by a SNF

Despite the FDA classification of enteral nutrients as a food, the DMERC manual
indicates that a SNF may either provide enteral nutrition services and supplies tiirectly, or
through an outside supplier. A SNF is considered to be providing enteral items when it
purchases them directly from any source, and then provides them to a resident. If an
individual is in a Part A SNF stay and the SNF furnishes the nutrients to the beneficiary,
the DMERC manual notes that such services are to be billed to Part A. In this case, the
manual states, “Enteral nutrients are classified as food and are included as a component of
the SNF’s routine costs. ”3 Further, the DMERC suppliers’ manuals state that no
payment may be made by Part B for enteral nutrition services provided by the SNF during
a Part A stay. In addition, the Social Security Act (Section 1833d) and the Medicare
coverage policy indicate that any item covered. under Part A cannot be billed to Part B.

Provision by a Supplier

As mentioned; -the DMERC manual also indicates that nutrients may be furnished by an
outside supplier to a beneficiary during the course of a covered Part A stay. In such a
case, the services are covered by Part B since the SNF does not buy the items from the
supplier.

It is unclear how a resident in a SNF could obtain enteral nutrition services other than by
having the facility provide them, since this is generally his/her total nutritional intake. To
have a resident responsible for providing his/her own food is contradictory to the SNF
benefit to provide for dietary needs. If an outside supplier assumes the responsibility for
a resident’s nutritional needs, this also appears to abrogate the provider’s responsibility to
provide for dietary needs.

The provision of enteral nutrition services by a supplier can become even further
complicated, since a SNF can perform as a supplier. If a SNF provides nutrients to a
patient as a supplier rather than as a provider, the services may be billed to Part B.
However, in either situation, the SNF is providing the services to the individual.




                                              5

Die~ary Services Requirement

Failing to include enteral nutrition services within the Medicare payment raises concerns
about a facility’s compliance with 42 CFR 483.35 which states that “the facility must
provide eimchresident with a nourishing, palatable, well-balanced diet that meets the daily
nutritional and special needs of each resident. ”

INCONTINENCE        CARE POLICY

Definition of Incontinence Care: UroloD”cal, Ostomy, and Colostomy: Some patients

have an involuntary loss of urine, or permanent urinary incontinence, due to a

permanently inoperative or malfimctioning urinary bladder and/or bladder outlet. The

bladder problem may be due to a structural impairment of a body organ or result from a

nerve dysfimction or obstruction. A urinary collection system is required for patients with

urinary incontinence. Such a collection system may require an indwelling catheter or

intermittent catheter~ation in addition to drainage bags or bottles and related supplies.

Also, some patients may require a surgically created opening to divert urine or feces

outside the body. These individuals require a collection system that attaches directly to

the body and will require bags or pouches, as well as related supplies.


Medicare Coverwge Requirements for Incontinence Items: Incontinence care supplies may

be covered by Part A or B during a covered SNF stay and are considered a prosthetic

device, since they replace all or part of a body organ. For the purposes of Part A

coverage, incontinence services are included as inpatient ancillary services and included in

the provider’s allowable costs. These services are included as a, Part A payment during a

Medicare covered SNF stay. For coverage by Part B, the condition of urinary

incontinence must meet a test of permanence. Permanency is present if the device is

required for a long and indeftite period of time of at least three months.

               .
Incontinence Care Services Can Also Be Paid By Part B During Covered SNF Stays.

As previously mentioned, incontinence services may be covered under Part A or B,
depending upon who supplies the items. Although the coverage policy for incontinence
care items is not as clear as that of coverage for enteral nutrition services, allowing Part B
coverage may continue to relieve the SNF of responsibilities implied in the benefit.

Prior to 1972, the HCFA Providers Reimbursement manual specitlcally included
incontinence appliances and supplies in the routine costs of a SNF, thus making them
payable by Part A. After 1972, this clear listing was deleted from the manual.
Incontinence items, provided by the SNF, are now included under inpatient ancillary
services, which are included as part of the Part A payment.

The category of ancillary services allows certain services, not generally provided to all
patients, to be considered allowable costs for Medicare payment. Thus, while food and
nursing care are required by all patients, urological and ostom y items are not. Although
these are individualized items, 1994 nursing home data indicate that 92 percent of all


                                              6
nursing homes provide services to patients with indwelling catheters. 4 Incontinence items
represent critical services for patients requiring them and, if not carefully provided, can
lead to negative health consequences such as decubitus ulcers.

Further discussion in various manuals indicates that incontinence care items are generally
considered services provided by a SNF; thus, they are extended care services.s
However, convention has allowed coverage of these items to be determined at the
individual SNF level. This determination resulted from the inclusion of incontinence
items in the benefit category (referenced earlier) stating that such items are covered if they
are “ordinarily furnished bv such facilitv for the care and treatment of inpatients. ”
Despite this categorization, none of the regulations or manuals specitlcally state that
incontinence items should be covered in this manner. Once again, various references to
urological and ostomy items state that when these services are provided by the SNF
payment may only be made under Part B when Part A payment is not available.b Thus,
if a facility does not choose to furnish incontinence items to its patients, it may allow a
supplier tG provide tiwm and bill Part B of Medicare for the items.

SURGICAL      DRESSINGS      POLICY

Definition of Surgical Dressings: Patients who have undergone a surgical procedure
requiring an incision or sharp debridement require surgical dressings in order to promote
healing or to protect the wound from infection. Surgical dressings are therapeutic and
protective coverings which are applied directly to wounds, either on the skin or opening to
the skin. These dressings require regular changing and may be primary; applied -tmthe.
wound, or secondary, used to secure the primary dressing (e.g. tape, elastic, gauze).7

Medicare Coven.zge Requirements for Surgical Dressings: Surgical dressings may be
covered under Part A or Part B during a Medicare covered SNF stay. For purposes of
covered Part A-stays, these items are considered ancillary services. For Part B coverage,
dressings must be required as a result of a surgical procedure. Further, they must be
medically necessary to facilitate the healing of the wound or to protect it from infection.

Part B Coverage Of Surgical Dressings During SNF Stays Is Also Inconsistent           From
The Perspective Of The SNF Benefit.

Surgical dressings can also be covered by Part A or B during a covered SNF stay,
depending upon who provides the service. However, this is a service that many would
assume is included in a covered skilled stay, given the type of patients generally cared for
in SNFS.

Surgical dressings, like incontinence items, were also included as routine supplies and
costs of a SNF before 1972, but are now included as an inpatient ancillary service. Thus,
they continue to be covered by Part A. In addition, dressings are included within the
category of service, “other services necessary to the health of the patient as are generally
provided by SNFS.” As previously stated, these items are genemlly considered services
provided by SNFS and would be considered as included within the Medicare SNF benefit.


                                              7
However, the regulations applying to coverage of services in post-hospital SNF stays give
sterile dressings as an example of a service categorized as “supplies, appliances, and
equipment.”8 This category, as previously discussed, states that these are items included
as a covered SNF benefit @ if they are ordinarily furnished by the facility to inpatients.
Thus, the decision to provide this item can be interpreted as being made at the individual
SNF level. This fhrther complicates the ability to decide what is the most appropriate
payment source for surgical dressings during a covered SNF stay.

Over $70 Million Were Allowed By Part B For These Three Services In 1991 And
1992, When Much Of The Costs Could Have Been Borne By Part A.

The total allowed Part B payments for enteral nutrition services, incontinence care and
surgical dressings were $70 million in 1991 and $74 million in 1992. While the amounts
allowed for enteral nutrition services and surgical dressings remained relatively constant,
allowed amounts for incontinence care increased substantially.

An additional concern which arises in the discussion of Medicare covered SNF care is
whether these services are provided by the facility to some patients but by a supplier to
other patients. The program requires that a facility use the same method for providing
services to all of the patients requiring those services. This indicates that either the SNF
would bill for all services, to Part A or B, or the supplier would bill for all services to
Part B. We have no information on whether services provided to patients in the same
facility vary. However, the potential to vary service delivery may also be an issue to
examine.

Paying For These Services And Supplies Under Part A Could Save Medicare Money
And Reduce Improper Incentives For Providers.

Payment for enteral nutrition services, incontinence items, and surgical dressings under
the Part A program could result in savings to the Medicare program if the SNF acted as
the purchaser and negotiated favorable pricing (lower than Medicare Part B allowed
amounts).

To illustrate the implications for savings, we provide the following example. Currently,
Medicare Part B reimburses enteral formulae (procedure code B4150) at the rate of
approximately 61 cents per unit (100 calories). One large hospital buying group routinely
obtains nutrients classified under procedure code B4150 for as little as 20 cents. Contacts
with several nursing homes suggest that, in addition to hospitals, nursing homes may
obtain nutrients at prices significantly below the 61 cent reimbursement level. Fee
schedules used for Part B reimbursement may not represent an efficient delivery of service
when compared to facility acquisition costs. If facility acquisition costs are indeed lower,
and Medicare payment policy could reflect the lower costs, the program might save
significant dollars. We are currently conducting an inspection to assess nutrient pricing
for nursing homes.




                                              8

Current policies allowing outside suppliers to provide supplies to nursing home residents
through Part B can lead to excessive utilization. Previous work by the OIG examining the
marketing of incontinence supplies found: 1) some suppliers engage in questionable
marketing practices, 2) beneficiaries may be receiving unnecessary or non-covered
supplies, 3) some suppliers present the nursing home with false or misleading information
in order to get nursing home business.

Paying For These Services Under Part A Would Also Save Beneficiaries                                         Money.

Part B billing for enteral and incontinence services and surgical dressings increases
patients’ financial liability for their care. Part B coverage includes annual deductibles and
a co-payment of 20 percent. Unfortunately, the patient may not be aware that the
provision of his/her enteral nutrition services may result in a greater financial
responsibility in some SNFS but not others. The inclusion of these services would have
resulted in beneficiary payment savings of $17.6 million in 1991 and $18.5 million in
1992.9

                        Beneficiary                    Co-pay                   Liability
                                                    By Service

                 1991




                 1992

                          ~.                                                     \          .    x
                                                                                                      I
                          0.$                  6$              10s                   15.$
                                                         Millions
                               Z%   Enteral         -   Incontinence        -        Dresainga




                                                        FIGURE 2


       SOURCE:     OIG Projections            from a one-percent       sample of Medicare        beneficiaries.


We recognize that a considerable portion of the co-payment savings discussed might shift
to Medicare Part A, if Part B payment were prohibited. However, the potential savings
described in the previous finding may offset these costs.

Coding Problems Exist On Claims Submitted For T&se Services.

Although the claims for enteral nutrition services, incontinence care, and surgical
dressings reviewed for this report represented care billed during a Part A SNF stay, many
of the claims represented the place of service as a location other than a SNF. While
coding practices improved for both dressings and incontinence items, coding accuracy
declined for claims for enteral nutrition services. However, the problem remained the
greatest for incontinence claims.


                                                             9

Pkzce of Service Coding Problems increased for EnteraJ (Wires during SNF Stays.

Many of the enteral nutrition services provided to beneficiaries in a Part A SNF stay were

indicated as being for individuals outside of the SFJF Setting. This may indicate continued

billing by individuals who were previously in other locations, as was found to be

occurring for other services billed during a SNF stay. 10 The use of a place of service

code representing a place other than a SNF may also indicate that double billing is

occurring for individuals who received services prior to SNF admission and continued

receiving services, with both facilities billing. A further examination of place of service

coding showed there were some patients with two billings, allowed for the same code and

the same period, with the place of service coded SNF on one and NF on the other.


     Place         Of    Service    Coding   On                 Claims
                          Incontinence  Care                                        Although Place of
                                                                                    Service coding for
                                                                                    Incontinence Chzims
                                                                                    improved, the Majority
                                                                                    of Allowed Claims
                                                                                    indicated a Place of
               o        400   800       i200     1600       2000        2400
                              Number      of Claims
                                                                                    Service other than a
           -        SNF       -        NF             -     Custodial
                                                                                    SNF.
           -        Home      m        Office         -     Other




                                  FIGURE 3



W%ilePlace of Service               Place        Of       Service         Coding         On     Claims
Coding has improved                                       Surgical        Dressings
on Surgical Dressing
claims, problems still
exist.

While correct coding
                                                       \     u
on claims for surgical
                -)                                                1
                                        0   25     50	 75   100    125 150    175 200 225
dressings have
                                        Number   of Claims

increased from seven

percent in 1991 to 65
                m     Office     -      Other
percent in 1992,

problems still exist.
                                   FIGURE 4
Additionally, if the

claims representing “office”
 as place of service are correct, this activity would indicate
additional expenses involved for changing dressings. These expenses may represent
transportation via ambulance for the beneficiary.

         SOURCE: OIG Projectionsfrom a one-percentsample                   of Medicare   beneficiaries.




                                                          10

                      RECOMMENDATIONS

The current fragmented manner in which Medicare payment is made for SNF residents is
a result of statutory provisions originally intended to ensure access to care. This report
demonstrates that the ability of a SNF to make use of both Part A and Part B to
underwrite care to its residents can result in increased program expenditures and waste
and may dissipate the SNFS’ incentives to oversee the total package of care the resident
receives.

In light of this, we recommend that:

  �	   HCFA develop a legislative recommendation to prohibit entities other than the SNF
       from seeking coverage on behalf of persons in Part A covered NW? stays for
       enteral nutrition, incontinence care, and surgical dressings and limit Medicare
       coverage of these services to Part A.

 �     HCFA clarify 42 CFR 483.35 (Dietary       Services)   to specifically   include   parenteral
       and enteral   nutrition.



COMMENTS

Comments were received from the HCFA, ASPE, and PHS on the draft report.                   The full
text of the comments is included in Appendix C.


The HCFA and ASPE made suggestions about refocusing the recommendations to more
clearly address the problems discussed in the report, which we adopted. Both HCFA and
ASPE stated several concerns about language in the draft report raising questions about
quality of care and about tying the problems discussed to residents’ rights. We agree with
HCFA and ASPE and have eliminated the language on these points.

Both HCFA and ASPE also raised questions about how savings might accrue to the
Medicare program by implementation of the recommendations. We attempted to
clarify our discussion of this point within the text of the report. It is true
that merely shifting costs to Part A, without putting in place proper payment
policies, accomplishes little. Medicare payment policies should both create
incentives for prudent purchasing and reflect the economies achieved through
prudent purchasing. As indicated in the report, the OIG plans more work on
this subject, focusing fwst on payment for enteral nutrition,

Lastly, we adopted a number of suggested technical improvements made by the
commenters.




                                            11
                                EN DNOTES


1. The Office of Inspector Geneml, Office of Evaluation and Inspections has produceda
report entitled “Medicare Services Provided to Residents of Skilled Nursing Facilities, An
Overview, ” OEI-06-92-00863. The report presents information on all Part B payments
made in 1991 and 1992 for services provided to Medicare beneficiaries during Part A
SNFstays.
2. The FDA classifies products that contain nutrients. Under current FDA policy, these
products may be considered to be foods or drugs, or both, depending on their intended use
as determined by the claims that are made for the product.

3. All four of the DMERC manuals have this and the following statements present. In
addition, the Provider Reimbursement Manual, section 2203.1 E, provides the same
information.

4. This figure comes from the OnLine Survey and Certification Annual Review (OSCAR)
database. The percentage represents a combined total of all SNFS and all nursing facilities
that have patients with indwelling catheters.

5. A rather disjointed discussion is provided on the extended care benefit and what is
included in the benefit in both the law, regulations and manuals. While it appears that
convention has included many items within the category drugs, -biological, supplies,
appliances, and equipment, this is not clearly indicated in either the regulations or
manuals. Including incontinence items within this category allows for the items to not be
covered, since this section indicates these items are only covered if the facility generally
provides them to its inpatients.
              ..
The Intermediary Manual refers the reader to several additional sections, including the
section referring to services covered under a Medicare Hospital stay and services covered
by Part B if no payment by Part A is available. At the end of the discussion, it becomes
clear that incontinence services, as prosthetic devices, are considered an extended care
service under the section of the benefit “such other services necessary to the health of the
patients. ” A fimther discussion within the Provider Reimbursement Manual, 2203.1 and
2203.2, discusses the routine and inpatient ancillary services included in the Part A SNF
payment. Urological and ostomy care items are included within the ancillary services
area.

The following provides more specitics on the references made to incontinence services in
several places.

There are regulations addressing coverage of services in post-hospital SNF care at section
409.20. At 409.25 there is a reference to a category called medical supplies, appliances
and equipment. Within this section there is a reference indicating that these generic items
(medical supplies, appliances and equipment) are only covered by Part A if they are


                                             12

ordinarily furnished by the facility to inpatients. However, no mention is made of
prosthetic devices within this section. In fact, very few specific examples are provided in
the entire section of items covered during a SNF stay. A clear interpretation of the Part
A and B benefit is further complicated when wording is absent or is not consistent
between the law, the regulations and manuals.

The discussion in the Medicare Intermediary manual, section 3133.9, indicates the SNF
coverage area mentioned previously, “such other services necessary to the health of the
patients, ” are covered if SNFS generally provide the service. This area is further defined
as those “medical and other health services” that are listed in section 3110-3110.5.     It is
stated that the services listed in this section are generally provided by skilled nursing
facilities and thus they are considered extended care services. Further discussion indicates
that the SNF medical and other health services are basically the same as those included as
inpatient hospital ancillary services. Within the listing of inpatient hospital services are
prosthetic devices and more specifically, catheter, ostomy and colostomy equipment and
supplies. The discussion also indicates that these items may be covered by Pdi L B only if
Part A coverage is not available. The reasons for Part A being unavailable are 1)
benefits have been exhausted, 2) the 3-day prior stay requirement is not met, or 3) the
patient is receiving a non-covered level of care. No mention is made that some of the
items in this listing are not covered if the facility does not generally provide them to
inpatients.

Within the discussion of the Part B coverage of incontinence care items contained within
the secondary medical insurance regulations, section 41.0.10, these items are still referred
to as “medical and other health services. ” However, when these items are covered by
Part B, the regulation section 410.36(a)(2) indicates that incontinence items are included
within an area called “medical supplies, appliances and devices, ” equipment is listed
separately. However, there is no reference to such a category elsewhere.
              ..
6. Medicare Intermediary Manual A3 section 3137.

7. The information presented here and in the next section represents the most recent
changes to the SNF manual.

8. Medicare Regulation 409.25.

9. For purposes of this calculation, a rate of 25 percent was used to account for
deductibles and co-payments when assessing the burden to the Medicare beneficiary for
Part B co-payments. This number is used as a conservative approximation of the
deductible and co-payment portion of the allowed charges. A recent OIG report on Part B
DME payments during SNF stays indicates that deductibles and co-payments accounted for
27 percent of the allowed charges.

10. The Office of Inspector General, OffIce of Evaluation and Inspections has produced a
report entitled “Payment For Durable Medical Equipment Billed During Skilled Nursing
Facility Stays” OEI-06-92-00860. one of the problems noted in this report was the



                                              13

incorrect coding for the place of service. Often the place of service was coded incorrectly
due to what appears to be the lack of knowledge of the patient’s location.




                                             14
                                    APPENDIX            A


                              CONFIDENCE           INTERVALS


The following presents the 95 percent confidence intervals of the point estimates for the
three services discussed in this report. We reported our findings by multiplying 100 by
the point estimates in our samples. The point estimates represent the total Medicare
allowance for each service as reported in Appendix B. The confidence intervals present
the range of possible findings at the 95 percent level.



          Year                                        Allowances

                             Projected Total                95% Confidence    Interval
 Enteral Nutrition Services: 1991-1992

          1991                 $57,138,058               $55,769,606-$58,506,510
          1992                 $57,724,751               $56,346,521-$59,102,981
 Incontinence Services: 1991-1992

          1991                  $7,003,804                  $6,529,793-$7,477,81     1
          1992                 $10,357,533                  $9,164,521-$11,550,545
 Surgical	 Dressing Services: 1991-1992
          1991                  $6,275,711                  $4,697,988-$7,853,434
          1992                  $5,962,657                  $4,636,487-$7,288,827




                                             A-1
                                                                 APPENDIX                                                                  B

                     MEDICARE                          EXPENDITURES                                         BY CATEGORY                                    OF SERVICE



                                                                                      Expenditures                                     for Enteral                      Services
Medicare Allowed                                                                                                 By Category                      of Service
Approximately $57 Million
in Pati B Charges in 1991                                                                  1991


and 1992 for Enteral
                                                                                           1992
Nutrition, Equipment, and
                                                                                                        ~:                                                                                7’
Supplies.                                                                                             0s                10s           20s         30s            40s         60S         60S
                                                                                                                                               Millions
                                                                                                            ZZZl Sumlies                   ~      Formula           -        PumD.9




     Expenditures                                    for Incontinence                                       Services*
                                    By         Category                    of        Serv[ce
                                                                                                                                                          Medicare Allowed $7
                                                                                                                                                          Million in 1991 and
                                                                                                                                                          $10.3 in 1992 in Part
                                                                                                                                                          B Payments for
                                                                                                                                                          Urological, Ostomy,
                                                                . .                                     .
                                                                                                                                                          and Colostomy
                                                                                                                               .J



                         I
                         0s                   2s                4s                    6s                      2+s                    10s
                                                                     M1111O”.                                                                          ~	 Services during Part A
                     =         CMhete,.                    =     Catheter        supply        ~        salk.
                     ~         08tomy         bags         =     0.twllY        SUDldY         ~       SLIPPIY,         Both                              SNF Stays.
      -urological.       o.totny,       and    colostomy       owe




                         .



                                                                                           Expenditures    for Surgical  Dressing
                                                                                                   By Category  of Service
Surgt”calDressings
Accounted for $6.2
                                                                                        >907
Million in 1991 and $6.0
Millwn in 1992 in Pad B
                                                                                       19e2
Payment for Beneficiaries                                                                                                                                                           ‘s


in Medicare Covered Pait                                                                            ‘1
                                                                                                    0s              1s              26	         3s      4*              6s          es         7s
                                                                                                                                                MlllloneJ
A SNF Stays.                                                                                           =         S...nryry            Dr.ssMIG-           EZZi   Prim.ry      Dr*.al.9
                                                                                 .   I“dud..       ml. o.l.     n.cw.     .UPDII..




              SOURCE:                   OIG Projections                     from a one-percent                                sample of Medicare                        beneficiaries.




                                                                                                   B-1

     APPENDIX          C

    TEXT OF AGENCY COMMENTS




.




             c-1
     COMMENTS      OF THE PUBLIC HEALTH SERVICE





 DEPARTMENTOF HEALTH& HUMAN
                          SERVICES                     Fublic&#Jlsm&?

                                                       Memorandum
.
     FE~ 2 /gg5
Director

Office  of Resource Management,      OM


Office  of Inspector   General (OIG) Draft Report “Medicare

Payments for Nonprofessional Services in Skilled Nursing

Facilities ,“ 0EI-06-92-O0864


Deputy   Inspector General    for hbaluations and Inspections,     OS



The Public Health Service has reviewed the subject C)IG draft

report.   We have no comments on the re~rt’s  recommendations

which are directed to the Health Care Financing

Administration.   However, we submit the attached technical

comments for your consideration.


We appreciate     the opportunity   to review the draft report.





Attachment




.





                             c-2
            COMMENTS OF THE PUBLIC HEALTH SERVICE ON THE

              OFFICE OF INSPECTOR GENEIUL DXikFT REPORT

           “MEDICARE PAYMENTS FOR NONPROFES~IONAL SERVICES

                   IN SKILLED NURSING FACILITIES, ”

                          _(OEI-06-92-0086~



The Public Health Sewice  has reviewed the Office of Inspector

General draft report and has the following comments.


TECHNICAL   CON.13mlTS

1.	   The draft report indicates that the Food and Drug
      Administration (FDA) classifies products intended for use
      in enteral nutrition as food and not drugs in three
      places:   page 4, third paragraph; page 4, fifth
      paragraph; and page 5, first paragraph.   There are two
      significant points that we want to bring to your
      attention.

      o	    First, all three references to FDA policy use the
            terminology “enteral nutrients. “ In reality, FDA
            does not classify “nutrients,” but classifies the
            products that contain the nutrients.   It would be
            more accurate to use a phrase such as “Products that
            are intended for use in enteral feeding. ..“

      o	    Secondr  the statements  that FDA classifies  these
            products   as foods are not completely accurate.
            Under current FDA policy, these products may be
            considered to be foods or drugs, or both, depending
            on their intended use as determined by the claims
            that are made for the product.

2.	   The draft report uses a variety of different words and
      phrases in its discussion on the provision of enteral
      nutrition senrices to patients.  To improve the clarity
      of the report, we suggest that more precise terminology

      be used to discuss enteral nutrition services.  We

      suggest that the report be amended in the following

      instances as indicated:


      Paqe iii, third ~arauraph, line 4: Replace “enteral

      claims” with “claims for enteral nutrition services. “


      pacze 2. first DaraUXaPh, line 3: Replace “enteral
      nutrients” with “enteral nutrition services,”

      Paue 2, second DaracrraDh, line 2: Replace “enteral

      nutrients” with “enteral nutrition services. “


      paae 6, first full ~araqravh, line 1:        Replace   “enteral
      nutrients”   with   “enteral nutrition   services.”




                                     c-3
                  Pacre 6., first full DaraqraDh, line 5: Replace
                 -.	                                                      “enteral
                  services” with “enteral nutrition services. “

                  Pacfe 6, fourth paraqra~h, line 3: Replace “enteral
                  policy” with “the policy for providing coverage for
                  enteral nutrition services. “

                  Paqe 9, paraqraph at bottom of paqe, line 3: Replace
                  “nutrients” with “enteral nutrition services. “

                  Paae 10, first full ParaaraDh, lines 4 and 7: Replace

                  “enteral nutrition” with “enteral nutrition services. “


                 Paqe 10, last oarama~h,  line 1:          Replace   “enteral” with
                 “enteral nutrition services. “

                 Paae 101    last    DarauraDh, line 4:    Replace “enteral
                 services”    with    “enteral nutrition   services. “

                 Paue 11, second DaraqraPh. line S: Replace “enteral
                 service claim” with “claims for enteral nutrition
                 services.”




                                                   c-4



.—   _—.— ..__    —
    COMMENTS          OF THE HEALTH             CARE F7NANC~G               ADiVHNrS~TION




            DEPARTMENTOF HEALTH& HUMAN SERVICES
                                                                               Health
                                                                                    care
                                                                                       Ftnanc,    ng Admtn!strat!o.


                                                                                            —.                        1
                                                                               The Admm!q,ator
                                                                              was~wtonc    D.c.   20201




      DATE:           FEB23~
      TO:           June Gibbs Bron
                    bspector General
                                               .
      FROM:        BIuce C. VladW              N
                                             &
                   Administrator
                                 %
     ‘~JE~:	       office of hspectorGeneralDraftReport: “MedicarePaymentsfor
                   ~onprof~ional Sem”~ iIISki]]edNu~@ FaCi]itie$n (OEI--O6-92-W8&)

     We reviewed the subject repoti which e~in~  the approptiaten~ of allowing Part B
    pqnmt     for nonprofmionalsam-w includedin theextendedcare or skillednursing
    facilitybenefit .Our co~ents are atiched for your considemti~.

    Thank YOUfor the”oppo~ni~       to review and co~ent      on this report. Please advise us
    if you would like to discuss our position on the repoti’s recommendations.


    At@chment




I

                                          c-5
              Comments of the I-XealtbCare FinancingAdministration[HCFA)
                    on C)ffice of Inspector General (OIG) Draft Report:
                 “Medicare Payments for Nonrxofessional Services in Skilled
                                  Nursine Facilities [SNFS’
                                      [OEI-06-92-00864)


 OIG Recommendation        1

 HCFA should develop a regulation or ]egi.s]ative recommendation, as appropriate, to
 establish an enforceable requirement for SNFS to provide cover~ %rvices within the
 Part A payment rate.

 HCFAResoonse
We concur. We developed a legislative proposal that includes a SNF bundling
requirement. This proposa] would require SN’Fs to provide all nonprofessional services
or supplies furnished to their patients, thus no paptent wou]d be made under Part B.

This program change should help to Contro] ovemti]~tion   of these services and result in
reduced cost-shanng for bene~ciariea since they would no longer be required to pay
deductiblesand cotisuranw.’~is Wou]dah ~ist HCFAin trackingthe costof care in
SNFSand developing a SNF prospective payment system.
OIG Recommendation        2

HCFA should clarify the Residents’ Rights regulations, CFR 42483.10, as to whether
the care and seMces defined as included in the Medi~re and Medimid rate are
rquired to be provided by the facility.

liCFAR emonse

We do-not concur. ne re~lation is clear~ re~ted to both Medicare and Medicaid
beneficiaries. Requiring the faciuty to tic]ude ~~      WMeS     in is   Part  A  bill   could be
accomplished only through legislation to prohl%it outside mppliem from billing for
unbundled SeMCeS    under part B.   we  do  be&re,   how~er,   that   it would   be    prudent to
clarify 42 CFR 483.35 (Die@ry Sefi~)       to include parenteral and enteral nutrition.

Additional Comments

We be[ieve the report wou]d be more helpfil to its       Congre=iona]
                                                               rca&rs
                                                                   if it began with
a clear statement along the following lines




                                              C-6

 -,

  Page 2

             “Thecurrent fragmentedmwmer in whichMedicarepayment is made for SNF
             residents is a result of stitutory prcwisions
                                                        origh~y timnded toensureaccessto

             carg.‘l%is  reportamp]y demonstrates    thattheability

                                                                   ofa SNF tomake useof

             both Part A and Part B to undenvrite care to its residents results in increased
             progmm expendituresand wasteand maydissipatethe SNFSincentivesto oversee
             the totalpackageof care the residentreceives.”
         “Changesin Medicarepaymentrulesto ensurethat Medicare’sSNFpaymentsare
         appropriatewouldne~ to be madeiIItie ]aw. Giventie ]Ongstinding  nature of
         the currentbusinesspracti~s of SNFS and de PW B Suppfiers,Stitutorychange
         is th: >alywaythat changecouldbe effectivelyimplemented.’
 Background Section:

         o	       ‘f’he first sentence is misl~tig.  part A SNF StqS are dependent on a
                  specfic set of conditions necessary for coverage that may result in up to
                  100 days of covered care per benefit period.

        o	        The foknving statement is made %e ktent of this benefit is to shorten
                  hospital stays while still prw”ding Covemge for a patient who requires
                  regularnursingand professionalintervention.-It is incorrectto state that
                  the intentof the benefitis to prtide Wenge for regularnursingand
                  professionalintervention.-SNFcoverageis dependentupon the need for
                  skilled aeMCCS on a daily br@ fo~owing a prior 3-day quali~ng hospital
                  stay, which as a practical matter can be furnished only in a SNF.

      . o.        Please define “nonprofessional institutional service.”

       0	         The sentence, “Thus, payments should not be made under Part B for these
                  seMces” is a conclusion and should not appar k tie background section.
                  Section 1819(b)(4)(A)(iv) of the S-   Security Act currently allows for
                  paymentof certainservicesundereitherPart A or Part B.
Introduction:

       o	        The conclusion that “separate payments for these seMces under Part B
                 would seem inappropriate” is the purpose of the repo~ not the
                 background.




                                              c-7
‘Page 3

           0    The report’s reliability and validity could be enhanced with a more detailed
                discussion on the methodology utihd       to select claims, how the data base
                of valid and reliable claims was developed !mw a statistically valid sample
                size was determined, what data elerncnts were utilized in the analysis,
                which files within the common working file were utilized, and how the
                matching of Part A to Part B stays was performed.

 Findings:

        o      The ability of SNFS to provide servkxs under arrangements does not
               remove responai%ifity from the SN’F for tie ove.ra]l care provided to a
               beneficiary. It does allow the faci%ty,to the extent allowed by law, to
               determine what cows will be subject to tie SNF routine cost limit.

        0      Please state the source of the figures relating to pnyments to SNFS for
               enteral services, surgical dressing% and incontinent care items.

        0      To tie resident rights and quality of care issues to a loophole in the law
               that specifically aUows for payment of these servicxx (enteral nutrition,
               incontinence care, and surgical dressings) under the Part B benefit is
               fallacious. Further, there has been no violation of resident rights if the
               facility has informed the resident of facility charges as specified under
               42 CFR 483.10@)(6). Further, the report does not demonstrate that
               payment of these services under Rut B has causeda negative outcome
               relating to quality of care nor has it presented a factual basis to promote
               this finding.

       0       Similarly, the statement that the practice of billing incontinence care
               seMces under Part B may have the appearance of compromising the
               quality of care provided is not substantiated and not supported by factual
               analysis.

       0       Failure to includeincontinenceservicesunderPart A is not a failureto
               observeresidentrightsif the facilityhas informedthe residentof facility
               chargesas specifiedunder42 CFR483.10(b)(6).
Discussion:

       o       These semices are considered ancilla~ costs under Part A and are paid in
               full and are not included in the SNF ~outine cost Iimit. How will inclusion
               of these expenditures as ancillary costs under Part A reduce Medicare
               costs? SNFS are required to act as prudent purchases for these specific
               services.




                                          C-8
Page 4

         0	      Is the OIG indicating that these services should not be paid as ancillary
                cos~ but be subject to the SNF routine cmt limit? If so, we believe that it
              - is unlikely that SNFS would act as pmdent purchasers without increasing
                their costs over the limi~ when they are able to apply for exceptions to the
                SNF routine cost limits. III view of this it is unclear where the cost savings
                to the program are to come from.

     o	         Did the OIG question if tie intermediari~’ edi~ were turned on to check
                for incorrect coding? TO speculatemat it is lack of knmIedge by suppliers
                is not recognizing the unive~ of potenti~ pr~lem areas mat are directi
                program related. The OIG may wish to consider this issue more closely
                and make recommendations for improvement,




                                             c-9
                     COMMENTS OF THE ASSISTANT SECRETARY
                         FOR PL_G     AND EVALUATION



 #,
.‘~,..,-,,%
                DEPARTMENTOF HEALTH& HUMAN              SERVICES    [G        ~tce          of the Secrela!y
                                                                    SAIG
                                                                                      /
                                                                    PDIG          /
“:.5                                                                          ~ashington.          D C    20201
                                                                   DIG-AS .   ~
                                                  MAR     I 3 1995 c~~n       <
                                                                   DIGO1    —

         To:           June Gibbs Brown                            AKXXAA _

                       Inspector

                                General                            AIG-MP _

                                                                   OGC/lG ~
         From:         Assistant Secretary for                     EXSEC       /
                       Planning and Evaluation                                  t
                                                                   DATE SENT.-.

         Subject:	     OIG Draft Reports on Medicare Payments for Nonprofes­
                       sional Serviees in Skilled Nursing Facilities


         We have reviewed the draft inspedon report entitled, “Medicare Payments fa
         Nonprofessional Services in Skilled Nursing Facilities”. The report discusses deumre
         coverage of non-professional services in skilled nursing facilities (SNFS) and Iwzwnta
         concernswithcurrentcoveragepoliciesthat permitcovemgeof theseseM% m=
         eitherParts A or B on behalfof personstiding in SNFS.Whilewegenerallyagree
         withthe findingsin this report,we havethe followingcomments.
         A footnote indicates that the scope of the report is limited .to persons residing in SNFS
         during a Part A covered stay -(p. 14, footnote 2). We believe this information -to be.
         significant and recommend - the scope of this report be incorporated in the text of the
         rqort rather than only referenced as a footnote.

         While providing no evidentiary Wls, the report suggests that allowing Part B coverage
         for servhx may have a negative impact on the qudty of care. For example, the report
         states ht “aIlowing suppliers to provide enteral services appears to raise quality of care
         eoncems” (p. 6). Further, the report in sever-alinstancesimplies that allowingfor Part B
         coverage for SNF residents relieves SNFSof their responsibtities (e.g., pp.i,4,6, etc.).
         These claims should either be substantiated or elirnizkted from the report.

         The report states that “@aying for these setices and supplies under Part A could save
         Medicare money and reduce improper incentives for providers” (p. 9). The report also
         indicates that in 1992 beneficiary liability for these services under Part B was almost $20
         million and aelmowledges that these costs, now paid by beneficiaries, would shift to the
         progmm if they wem shifted to Part A. The report fails to indicate why or how saving
         wmdd accrue under the proposal, but instead identifies the bask for added Medicare
         -       The rationale that SNFS would be prudent purchasers is hardly compelling.
         Finally, given the absence of Part A fee seheduks or cost limits for some of these
         services, Part A payments may not be less than Part B payments. In sum, the report
         ti     to clarify its claim that Medkare could save money if Part B payments were
         prohibited for persons residing in SNFS during a Part A covered stay.

         One recommendation advanced in the reporl is that HCFA develop a regulation or
         legislative proposal that would require SNFS “to provide covered services withii the Part




                                                   c-lo
.-



         ‘A payment rate. W While we generally   agreewiththethrust   of&s recommendation,      we
         suggest itbe clarified.  As discussedin the report, SNFS may be considered suppliers of
         non-prof~iond     serviees and, as such, may bill Part B. Thus, a recommendation
         requiring.SNFSto “provide’ covered seMees W not be sufficient to prohibit Part B
         payments for nonprofessional services. In addition, given that the report is limited to
         persons residing in SNFS during a Part A eoverti stay, we recommend the
         recommendation be modified accordingly. This reeommemiation could be rewritten as
         follows:

               Prohibit entitiesother than the SNF from seeking eovemge on behalf of persons
               in Part A covered SNF stays for enteral nutrition, ineontjnenee care and surgical
               dressing and limit Me&are eovesage of these services to Part A.

     T%e intent of the reeommm&tion to ckrify that tihts’         rights include the SNF’S
     obligation to provide care and services is unckar. Why this recommtition        is needed
     and its effect need to be explained. Although current residents’ rights requirements do
     not explicitly provide a right to receive needed care and services provided by the facility,
     elsewhere in the regulations them is a requireww t that facilities provide needed services
     (e.g., 483.2S). l%e report provides no evidencethat t%ilities have t%iledto provide
     needed services. If the intent of this recommention is to prohibit beneficiaryfinancial
     lhbility for enteral nutrition, incontinence am, and surgical dressings, it should be
     modified to require inclusion of these services in the facility’s Part A payment (and
     therefoxe not payable under Part B) and, by so doing, exempt K&&nts from charges for
     these services,




                                            David T. Ellwood­

     _           by: SU~    ~wl       690-7862 and Jennie Harvell 690-644s




                                              C-II

